March 23, 2020
Sent Via E-Mail (dbaker@supremecourt.gov)
Mr. Donald Baker
Supreme Court of the United States
Clerk’s Office
1 First Street, NE
Washington, DC 20543
Re:

Case No. 19-1039, PennEast Pipeline Co. LLC v. State of New Jersey, et al.
Brief of United Association of Journeymen and Apprentices of the Plumbing and Pipe
Fitting Industry of the United States and Canada, AFL-CIO; International Union of
Operating Engineers; International Brotherhood of Teamsters; Laborers’ District Council
of Eastern Pennsylvania; and New Jersey State Building and Construction Trades Council
as Amici Curiae in Support of Petitioners (Filed March 23, 2020)

Dear Mr. Baker:
Pursuant to your conversation with Anna Friedlander of my office, please accept the
following statement, which should have been included as footnote 1 on the first page of text of the
brief referenced above in accordance with Supreme Court Rule 37.6:
No party or counsel for a party authored this brief in whole or in part. No party,
counsel for a party, or person other than amici curiae made any monetary
contribution intended to fund the preparation or submission of this brief. All parties
have consented to the filing of this brief.
Please feel free to contact me if you require anything further.

Very truly yours,

Ellen O. Boardman
342225_1.docx

